App. 2
The United States Bankruptcy Appellate Panel of
the Tenth Circuit (BAP) dismissed the appeal of pro se
litigant Michael Lynn Robertson for lack of jurisdic­
tion. The BAP reasoned that a post-judgment motion
Mr. Robertson filed under Federal Rule of Bankruptcy
Procedure 9023 was untimely and therefore did not toll
the time limit for filing his notice of appeal from the
bankruptcy court’s underlying judgment. Accordingly,
the BAP concluded that his notice of appeal was un­
timely and that the BAP lacked jurisdiction. Exercis­
ing jurisdiction under 28 U.S.C. § 158(d)(1), we affirm.
We conclude that the Rule 9023 motion was untimely
and reaffirm Tenth Circuit precedent that the time to
file a notice of appeal from a bankruptcy court is juris­
dictional. We also hold that an untimely Rule 9023 mo­
tion is ineffective to toll the time for filing a notice of
appeal and that the BAP may raise the timeliness of a
Rule 9023 motion sua sponte. We deny without preju­
dice appellee’s request for attorney fees.
I.

Overview of legal framework

The issues in this appeal turn primarily on one
statute and several rules of bankruptcy procedure gov­
erning the time to file a notice of appeal from a bank­
ruptcy court. We therefore set out the relevant legal
framework before turning to the facts and procedural
background of this case.
In 28 U.S.C. § 158(c)(2), Congress included a time­
liness condition for taking appeals from bankruptcy
court decisions: “An appeal under subsections (a) and

App. 3
(b) of this section shall be taken in the same manner
as appeals in civil proceedings generally are taken to
the courts of appeals from the district courts and in the
time provided by Rule 8002 of the Bankruptcy Rules.”
§ 158(c)(2) (emphasis added). In turn, Bankruptcy
Rule 8002(a)(1) states: “Except as provided in subdivi­
sions (b) and (c), a notice of appeal must be filed with
the bankruptcy clerk within 14 days after entry of the
judgment, order, or decree being appealed.” Fed. R.
Bankr. R 8002(a)(1). An exception in subdivision (b) is
relevant here and provides that Rule 8002(a)(l)’s 14day time period for filing a notice of appeal can be
extended when certain motions, including a Rule 9023
motion, are timely filed:
If a party files in the bankruptcy court any of
the following motions and does so within the
time allowed by these rules, the time to file an
appeal runs for all parties from the entry of
the order disposing of the last such remaining
motion:.. . (B) to alter or amend the judgment
under Rule 9023 [.]
Fed. R. Bankr. P. 8002(b)(1)(B) (emphasis added). And
Bankruptcy Rule 9023 requires that “[a] motion for a
new trial or to alter or amend a judgment shall be filed
... no later than 14 days after entry ofjudgment.” Fed.
R. Bankr. P. 9023.
With this framework in mind, we turn to the fac­
tual and procedural background of this case.

App. 4
II.

Factual and procedural background

Through counsel, Mr. Robertson filed a Chapter 7
bankruptcy petition. Banner Bank (Bank) initiated an
adversary proceeding seeking to except from discharge
a deficiency judgment it had obtained against Mr.
Robertson in Utah state court. After Mr. Robertson’s
counsel withdrew, Mr. Robertson proceeded pro se, and
the parties filed cross-motions for summary judgment.
On March 30, 2017, the bankruptcy court entered an
order and judgment granting the Bank’s motion and
denying Mr. Robertson’s motion. Fourteen days later,
on April 13, 2017, Mr. Robertson mailed a Rule 9023
motion to the bankruptcy court, asking the court to re­
consider, alter, or amend the judgment. The motion was
entered on the bankruptcy court’s docket on April 14,
2017, which was 15 days after the judgment. The par­
ties fully briefed the motion, and the Bank never com­
plained that the motion was untimely. The bankruptcy
court denied the motion on the merits, never mention­
ing whether the motion was timely.
On July 14, 2017, 14 days after the bankruptcy
court disposed of the Rule 9023 motion, Mr. Robertson
filed a notice of appeal to the BAP. The notice of appeal
designated only the bankruptcy court’s March 30,2017
order and judgment as the subject of the appeal. After
the parties completed merits briefing—where the
Bank did not dispute that the BAP had jurisdiction
over the appeal—the BAP issued an order to show
cause why the appeal should not be dismissed for lack
of jurisdiction because the notice of appeal appeared
untimely.

App. 5
After considering the parties’ responses to the
show-cause order, the BAP determined that the notice
of appeal was untimely. The BAP concluded that be­
cause Mr. Robertson’s Rule 9023 motion was filed 15
days after entry of judgment, it was untimely and
therefore did not toll the running of Rule 8002(a)(l)’s
14-day appeal period, which the BAP treated as juris­
dictional. In reaching its conclusions, the BAP rejected
Mr. Robertson’s argument that mailing the Rule 9023
motion on the fourteenth day after entry of the judg­
ment was sufficient to render the motion timely filed,
which the BAP said occurs when “a document [is] re­
ceived by the clerk,” R., Vol. I at 35. The BAP also re­
jected his argument that by mailing the motion to the
clerk, he had served the clerk, and that service is com­
plete upon mailing. The BAP reasoned that Rule 9023
requires filing within 14 days, and service is not equiv­
alent to filing. Accordingly, the BAP concluded that his
notice of appeal was untimely and dismissed the ap­
peal for lack of jurisdiction.
Mr. Robertson filed a motion for rehearing or to al­
ter or amend the BAP’s judgment, arguing that the
time to file an appeal with the BAP was not jurisdic­
tional, that Rule 9023 is a claim-processing rule and
the Bank had forfeited any objection to the timeliness
of his Rule 9023 motion, and that the BAP should not
have considered the timeliness of that motion sua
sponte. The BAP denied the motion for rehearing. This
appeal followed.

App. 6
III. Discussion
Mr. Robertson raises three issues on appeal, which
we address in the following order: (1) whether a Rule
9023 motion is deemed filed when mailed, so that his
Rule 9023 motion was timely filed; (2) whether this cir­
cuit’s law that Rule 8002(a)(l)’s time limit for filing a
notice of appeal from a bankruptcy court’s judgment is
jurisdictional remains good after intervening Supreme
Court decisions; and (3) whether Rule 9023’s 14-day
timeliness requirement is a claim-processing rule that
the Bank waived, so the untimely Rule 9023 motion
was effective in tolling the appeal period. The third is­
sue has a related concern: whether it was proper for
the BAP to raise the timeliness of the Rule 9023 mo­
tion sua sponte as a predicate to determining its juris­
diction.
The issues on appeal concern matters of law or
“mixed questions consisting primarily of legal conclu­
sions drawn from the facts,” so our review is de novo.
Gullickson v. Brown (In re Brown), 108 F.3d 1290,1292
(10th Cir. 1997). We afford a liberal construction to
Mr. Robertson’s pro se filings, but we do not act as his
advocate. Yang v. Archuleta, 525 F.3d 925, 927 n.l
(10th Cir. 2008).
A. A Rule 9023 motion is filed when the
court receives it
We first address whether Mr. Robertson’s Rule
9023 motion was timely filed. If it was, then it tolled
the appeal period, his notice of appeal to the BAP was

App.7
timely, and we would not have to address any other is­
sues in this appeal. We conclude, however, that the mo­
tion was not timely filed.
Mr. Robertson argues that his motion should be
treated as filed on April 13, 2017, the fourteenth day
after entry of judgment, because he placed it in the
United States mail that day, postage prepaid. He con­
tends that the Federal Rules of Bankruptcy Procedure
do not define when “filing” occurs, but he advocates for
defining that moment by reference to Supreme Court
Rule 29.2, which allows the date of filing to be the date
of mailing provided certain requirements are satis­
fied.1
We disagree with Mr. Robertson’s premise that no
federal bankruptcy rule defines when filing occurs.
Therefore, we need not consider whether Supreme
Court Rule 29.2 should apply. As noted, a Rule 9023
motion must be “filed ... no later than 14 days after
entry of judgment.” Fed. R. Bankr. P. 9023 (emphasis
added). In adversary proceedings, such as we have
here, the filing of papers is governed by Federal Rule
of Civil Procedure 5. See Fed. R. Bankr. P. 7005 (“Rule
5 F.R.Civ.P. applies in adversary proceedings.”). And

1 In relevant part, Supreme Court Rule 29.2 provides: “A doc­
ument is timely filed if it is received by the Clerk within the time
specified for filing; or if it is sent to the Clerk through the United
States Postal Service by first-class mail (including express or pri­
ority mail), postage prepaid, and bears a postmark, other than a
commercial postage meter label, showing that the document was
mailed on or before the last day for filing. . . .”

App. 8
under Civil Rule 5, “[a] paper not filed electronically”—
like Mr. Robertson’s Rule 9023 motion—“is filed by de­
livering it... to the clerk” or “to a judge who agrees to
accept it for filing.” Fed. R. Civ. R 5(d)(2) (emphasis
added). Delivery, and hence filing, requires receipt by
the clerk or a judge. See United States v. Lombardo,
241 U.S. 73, 76 (1916) (“Filing, it must be observed, is
not complete until the document is delivered and re­
ceived.”); In re Nimz Transp., Inc., 505 F.2d 177, 179
(7th Cir. 1974) (“[M] ailing alone does not constitute fil­
ing [.] . . . [F]iling requires delivery and receipt by the
proper party.” (citations omitted)); Kahler-Ellis Co. v.
Ohio Tpk. Comm’n, 225 F.2d 922, 922 (6th Cir. 1955)
(depositing a document in the mail “is not a filing; only
when the clerk acquires custody has [a document] been
filed” (citations omitted)).
Mr. Robertson does not argue that the clerk or a
judge received his Rule 9023 motion on April 13, 2017,
but only that he mailed it on that date. Consequently,
the motion was untimely.2

2 The Bank has not cited Rule 7005 or its incorporation of
Civil Rule 5, and the BAP approached this issue by analyzing the
meaning of the word “filed” in Federal Rule of Bankruptcy Proce­
dure 5005(a)(1), which provides that “motions . . . required to be
filed by these rules, except as provided in 28 U.S.C. § 1409 [con­
cerning venue in Chapter 11 proceedings], shall be filed with the
clerk in the district where the case under the Code is pending.”
Even if Bankruptcy Rule 5005 controls, we would reach the same
conclusion—that mailing is not equivalent to filing.

App. 9
B. Rule 8002(a)(l)’s time limit is jurisdic­
tional
We next consider Mr. Robertson’s argument that
Rule 8002(a)(l)’s 14-day time limit for filing a notice of
appeal from a bankruptcy court’s ruling is not jurisdic­
tional but a claim-processing rule. The distinction mat­
ters because if a time limit for filing a notice of appeal
is “jurisdictional,” then “late filing of the appeal notice
necessitates dismissal of the appeal”; but if it is “a
mandatory claim-processing rule,” it is “subject to for­
feiture if not properly raised by the [opposing party].”
Hamer u. Neighborhood Hous. Serus. of Chicago, 138
S. Ct. 13,16 (2017). For the following reasons, we reject
Mr. Robertson’s argument.
We considered Rule 8002(a) in Deyhimy v. Rupp
(In re Herwit), 970 F.2d 709, 710 (10th Cir. 1992), hold­
ing that the “failure to file a timely notice of appeal
[is] a jurisdictional defect barring appellate review.”
In Emann u. Latture (In re Latture), 605 F.3d 830 (10th
Cir. 2010), we reaffirmed our holding in In re Herwit
after considering the Supreme Court’s intervening
jurisprudence concerning the distinction between
time limits that are non-waivable jurisdictional require­
ments and those that are waivable claim-processing
rules. See id. at 832-37.3 Consistent with that interven­
ing jurisprudence, we considered whether Congress
3 Just prior to our decision in In re Latture, the BAP con­
ducted a similar analysis and reached the same conclusion that
Rule 8002(a)(1) is jurisdictional. See Hatch Jacobs, LLC v. Kingsley
Capital, Inc. (In re Kingsley Capital, Inc.), 423 B.R. 344, 347-51
(B.A.P. 10th Cir. 2010).

App. 10
had “ ‘rank[ed] [the] statutory limitation ... as juris­
dictional/ ” id. at 834 (quoting Arbaugh v.Y & H Corp.,
546 U.S. 500, 516 (2006)), and the “‘context, including
[the Supreme] Court’s interpretation of similar provi­
sions in many years past,’ ” to determine whether Rule
8002(a)(l)’s 14-day time limit is “‘jurisdictional,’” id.
at 835 (quoting Reed Elsevier, Inc. v. Muchnick, 559
U.S. 154, 168 (2010)). We discussed several factors in­
dicating that Rule 8002(a)(l)’s 14-day time limit is a
jurisdictional time prescription, not a waivable or for­
feitable claim-processing rule:
First, we noted that in 28 U.S.C. § 158(c)(2), Con­
gress had “explicitly included a timeliness condition”
for taking appeals—“that a notice of appeal be filed
within the time provided by Rule 8002(a).” In re Latture,
605 F.3d at 837.
Second, we noted that this “timeliness require­
ment ... is located in the same section granting the
district courts and bankruptcy appellate panels juris­
diction to hear appeals from bankruptcy courts—Sec­
tion 158(a)-(b).” Id.
And third, we observed that in Bowles v. Russell,
551 U.S. 205 (2007), the Supreme Court had noted that
“time limits for filing a notice of appeal have been
treated as jurisdictional in American law for well over
a century.” Id. at 210 n.2. Although Bowles concerned
a civil appeal rather than a bankruptcy appeal, we did
not “believe [that] distinction makes a difference” be­
cause “the Advisory Committee Notes accompanying
Rule 8002(a) state that the rule is an adaptation” of

App. 11
the same rule the Court addressed in Bowles, Federal
Rule of Appellate Procedure 4(a), In re Latture, 605
F.3d at 837 (internal quotation marks omitted), and
Bowles and Reed Elsevier instruct that we must “look
at the [Supreme] Court’s ‘interpretation of similar pro­
visions,”’ id. (quoting Reed Elsevier, Inc., 559 U.S. at
168). We also noted that historically, all circuits had
treated Rule 8002(a)(l)’s time limit as jurisdictional
prior to Kontrick v. Ryan, 540 U.S. 443 (2004), which
launched the Supreme Court’s recent series of deci­
sions analyzing whether time limits and other condi­
tions in statutes and rules are jurisdictional. In re
Latture, 605 F.3d at 837.
Mr. Robertson claims that In re Latture was
wrongly decided and should be overturned (1) because
we misapplied the Supreme Court decisions we dis­
cussed in In re Latture and (2) in light of decisions the
Supreme Court has issued since In re Latture that in­
volved or discussed appeals from or to courts that, like
bankruptcy courts and the BAP, are Article I courts,
not Article III courts. But this panel is “bound by the
precedent of prior panels absent en banc reconsidera­
tion or a superseding contrary decision by the Supreme
Court.” United States v. Meyers, 200 F.3d 715,720 (10th
Cir. 2000) (emphasis added) (internal quotation marks
omitted). Therefore, in determining what is binding
precedent from this court, we will consider only Su­
preme Court decisions issued after In re Latture that
Mr. Robertson cites in his opening brief and that are

App. 12
substantively relevant to his “Article I” argument.4
We discern two such cases: Hamer v. Neighborhood
Housing Services of Chicago, 138 S. Ct. 13 (2017), and
Henderson ex rel. Henderson v. Shinseki, 562 U.S. 428
(2011) {Henderson).5 Neither one requires us to over­
turn In re Latture.

4 In addition to his “Article I” argument, Mr. Robertson sug­
gests that In re Latture is in tension with Federal Rule of Bank­
ruptcy Procedure 9030. Aplt. Opening Br. at 10-11. Rule 9030
reads: “These rules shall not be construed to extend or limit the
jurisdiction of the courts or the venue of any matters therein.” We
rejected this argument in In re Latture, 605 F.3d at 837, holding
that § 158(c)(2) determined the timeliness component of jurisdic­
tion over appeals from bankruptcy courts “by incorporating the
time limits prescribed in Rule 8002(a).” None of the later Supreme
Court decisions Mr. Robertson cites in his opening brief bear on
that conclusion. Accordingly, this panel will not reconsider the
point. Meyers, 200 F.3d at 720.
5 In his opening brief, Mr. Robertson also relies on Sebelius
v. Auburn Regional Medical Center, 568 U.S. 145 (2013), in support
of his “Article I” argument. The time limits at issue in Sebelius,
however, did not involve any federal courts but the time to appeal
from a Medicare reimbursement determination by “[g]overnment
contractors, called fiscal intermediaries, ... to an administrative
body named the Provider Reimbursement Review Board.” Id. at
821. Sebelius is therefore not germane to Mr. Robertson’s “Article
I” argument. Consequently, we will discuss it no further. In his
reply brief, Mr. Robertson relies on another recent case, Patchak
v. Zinke, 138 S. Ct. 897 (2018), in support of his “Article I” argu­
ment. But that reliance comes too late. Patchak was decided be­
fore Mr. Robertson filed his opening brief, but he waited until his
reply brief to cite it. We ordinarily do not consider matters raised
for the first time in a reply brief, including arguments that might
support a court’s jurisdiction. McKenzie v. U.S. Citizenship and
Immigration Servs., 761 F.3d 1149, 1154-55 (10th Cir. 2014). We
decline to do so here.

App. 13
In Hamer, the Supreme Court held that Federal
Rule of Appellate Procedure 4(a)(5)(C)’s 30-day time
limit on the length of an extension of time to file a no­
tice of appeal in a civil case is a nonjurisdictional
claim-processing rule. 138 S. Ct. at 21. Facially, that
holding has no application here. But Mr. Robertson
directs our attention to the following statement in
Hamer: “The rule of decision our precedent shapes is
both clear and easy to apply: If a time prescription gov­
erning the transfer of adjudicatory authority from one
Article III court to another appears in a statute, the
limitation is jurisdictional; otherwise, the time specifi­
cation fits within the claim-processing category!.]” Id.
at 20 (emphasis added) (citation omitted). Mr. Robert­
son claims the reference to an “Article III court” means
that only timeliness prescriptions concerning “appeals
from one Article III court to another are jurisdictional,”
Aplt. Opening Br. at 14, and therefore “appeals from
Article I Bankruptcy courts fit into the claim pro­
cessing category” id. at 11. He posits that Rule
8002(a)(1) sets the time limit to appeal from one Arti­
cle I court (a federal bankruptcy court) to another (the
BAP) and is therefore nonjurisdictional under Hamer.
We disagree. Nothing in Hamer indicates that the
Court’s analysis turned on the constitutional basis for
a federal court’s jurisdiction. Instead, the Court’s ra­
tionale was that the 30-day time limit, which pur­
ported to apply “in all circumstances,” was set forth
only in Appellate Rule 4(a)(5)(C), whereas the relevant
statute, 28 U.S.C. § 2107(c), set a shorter time limit (14
days) on the length of an extension only in cases where

App. 14
“the prospective appellant lacked notice of the entry of
judgment.”Hamer, 138 S. Ct. at 19 (emphasis omitted).
Nor does Hamer stand for the proposition that a time­
liness prescription for taking an appeal from or to an
Article I court is per se a claim-processing rule. To the
contrary, Hamer cited examples of “cases not involving
the timebound transfer of adjudicatory authority from
one Article III court to another” where the Court had
“additionally applied a clear-statement rule.” Id. at 20
n.9. The Court then explained that the rule requires
consideration of “context” and the “Court’s interpreta­
tions of similar provisions in many years past” when
determining if Congress provided a clear statement
that a particular provision was intended to be jurisdic­
tional. Id. (internal quotation marks omitted). That ex­
planation confirms In re Latture’s analytical course,
which included consideration of context and precedent
in determining whether Congress has “rankled]” a
time limit as jurisdictional. In re Latture, 605 F.3d at
834.
For these reasons, nothing in Hamer causes us
to question the analysis or result in In re Latture on
the basis that time limits for filing notices of appeal
from or to Article I courts are nonjurisdictional
claim-processing rules. Other courts have agreed. See
Wilkins v. Menchaca (In re Wilkins), 587 B.R. 97, 105
(B.A.P. 9th Cir. 2018) (“[T]here is nothing in Hamer
that gives us a reason to reexamine the Ninth Circuit’s
longstanding construction of the time deadline in Rule
8002(a)” as jurisdictional.); In re Jackson, 585 B.R. 410,
412,415-16,420-21 (B.A.R 6th Cir. 2018) (considering

App. 15
Hamer and concluding that § 158(c)(2)’s time require­
ment, as implemented by Rule 8002(a)(1), is jurisdic­
tional).
Henderson is even further afield than Hamer. In
Henderson, the Supreme Court held that a statutory
120-day deadline for filing a notice of appeal from a de­
cision by the Board of Veterans’ Appeals to the United
States Court of Appeals for Veterans Claims was not
jurisdictional. 562 U.S. at 431. After noting that none
of its precedents, including Bowles, controlled the out­
come because the case involved “review by an Article I
tribunal as part of a unique administrative scheme,”
the Court considered several factors bearing on con­
gressional intent. Id. at 437-38. And it was those fac­
tors—not the Article I nature of the reviewing court—
that informed the result. For our purposes, the most
significant of those other factors are (1) the absence of
jurisdictional terms in the statute at issue and (2) the
numerous differences between “ordinary civil litiga­
tion” that “provided the context of [the Court’s] deci­
sion in Bowles,” and the “informal and nonadversarial”
nature of “the system Congress that created for the ad­
judication of veterans’ benefits claims,” id. at 440.
In contrast, § 158(c)(2) does speak in jurisdictional
terms, as discussed in In re Latture, 605 F.3d at 837.
Furthermore, § 158(c)(2) directs that appeals from
bankruptcy courts “shall be taken in the same manner
as appeals in civil proceedings generally are taken to
the courts of appeals from the district courts and in the
time provided by Rule 8002.” The Henderson Court
found that similar statutory language clearly signals

App. 16
an intent that a time limit should be treated as juris­
dictional. 562 U.S. at 438-39.6 And bankruptcy pro­
ceedings have much more in common with adversarial
civil litigation than with the nonadversarial scheme
discussed in Henderson. See Bullard v. Blue Hills
Bank, 135 S. Ct. 1686,1692 (2015) (“A bankruptcy case
involves an aggregation of individual controversies,
many of which would exist as stand-alone lawsuits but
for the bankrupt status of the debtor.” (internal quota­
tion marks omitted)); In re Grasso, 519 B.R. 137, 140
(Bankr. E.D. Pa. 2014) (“The adversarial nature of
bankruptcy proceedings presumes the participation of
creditors will be driven by their self-interest and not
the expectation of payment.”); see also Tenn. Student
Assistance Corp. v. Hood, 541 U.S. 440, 457 (2004)
(Scalia, J., dissenting) (“The similarities between

6 Mr. Robertson claims the word “generally” in § 158(c)(2),
read in conjunction with 28 U.S.C. § 2107(d)’s statement that
§ 2107, which sets the time for taking appeals in civil proceedings,
“shall not apply to bankruptcy matters or other proceedings un­
der Title 11,” indicates that Congress was delegating to the Su­
preme Court the authority to set how and when appeals are taken
from bankruptcy courts. In further support, he notes that in 2009,
the Supreme Court, which promulgates the Federal Rules of
Bankruptcy Procedure, extended Rule 8002(a)’s original 10-day
limit to 14 days. But this argument does not depend on or derive
solely from any Supreme Court decision issued after In re Latture;
Mr. Robertson cites only Henderson and only for its definition of
claim-processing rules. See Aplt. Opening Br. at 9. So even if this
were a meritorious argument (and we expressly disavow any sug­
gestion that it is), it could not serve as a basis for overturning
In re Latture absent en banc reconsideration or a superseding
Supreme Court decision. Meyers, 200 F.3d at 720. We therefore
decline to discuss it further.

App. 17
adversary proceedings in bankruptcy and federal civil
litigation are striking.”).
In sum, neither Hamer nor Henderson causes us
to question the analysis or result in In re Latture. We
therefore reject Mr. Robertson’s invitation to overturn
In re Latture and instead reaffirm that Rule _
8002(a)(l)’s time limit is jurisdictional.
C. Late-filed Rule 9023 motion did not toll
the appeal period
As noted, Bankruptcy Rule 8002(b)(1) extends or
tolls Rule 8002(a)(l)’s 14-day time period for filing a
notice of appeal when certain motions, including a
Rule 9023 motion, are timely filed, and a Rule 9023 mo­
tion must be filed “no later than 14 days after entry of
judgment.” Fed. R. Bankr. P. 9023. Mr. Robertson ar­
gues that Rule 9023’s time limit is a claim-processing
rule and therefore subject to waiver and forfeiture. He
notes that the Bank did not contest whether his Rule
9023 motion was timely, either in the bankruptcy court
or in merits briefing before the BAP, and that the bank­
ruptcy court denied it on the merits. He further argues
that while the bankruptcy court was entertaining the
motion, there was no final judgment to appeal. There­
fore, he posits, it was error for the BAP to consider
timeliness of the Rule 9023 motion sua sponte and dis­
miss his appeal for lack of jurisdiction.
The Bank does not argue that Rule 9023’s time
limit is jurisdictional but urges that an untimely Rule
9023 motion cannot toll the time to file a notice of

App. 18
appeal even if the opposing party does not raise a time­
liness objection to the bankruptcy court’s consideration
of the motion, and even if the bankruptcy court dis­
poses of the motion on the merits. For reasons that
follow, we conclude that Rule 9023’s time limit is a
claim-processing rule, but an untimely Rule 9023 mo­
tion is ineffective to toll the time to appeal under Rule
8002(b)(1)(B) even if an opposing party does not object
and the bankruptcy court disposes of it on the merits,
and the BAP can, sua sponte, raise the timeliness of a
Rule 9023 motion for purposes of determining its juris­
diction.
1. Rule 9023’s time limit is a claim­
processing rule
Rule 9023’s time limit appears to be a claim­
processing rule; the Bank has not suggested it has any
statutory basis, and we are aware of none. See United
States v. Mitchell, 518 F.3d 740, 744 (10th Cir. 2008)
(explaining that “Bowles .. . clarified that court-issued
federal procedural rules not derived from statutes
are not jurisdictional, but rather inflexible claim­
processing rules”). But the parties have not cited any
judicial decision directly on point, and the only case we
have uncovered is Dixon-Ross v. Hartwell (In re DixonRoss), No. 14-18608, 2016 WL 1056776, at *2-3 (E.D.
Pa. Mar. 17,2016) (unpublished), where the court com­
pared Rule 9023 to Federal Rule of Civil Procedure
59(e) and held that the debtor forfeited a defense of un­
timeliness to the bankruptcy court’s consideration of

App. 19
an untimely Rule 9023 motion by not raising that de­
fense in a timely manner. We agree.
Analogizing from Rule 59(e) is proper because (1)
Rule 9023 expressly states that, subject to exceptions
not relevant here, “Rule 59 . . . applies in cases under
the [Bankruptcy] Code,” Fed. R. Bankr. R 9023; and (2)
like Rule 9023, Rule 59(e) concerns the time limit (28
days) for filing a motion to alter or amend a judgment.7
And all circuits that have considered the nature of
Rule 59(e) in the wake of Kontrick, Eberhart, and
Bowles have held that it is a claim-processing rule
because it is untethered to any jurisdictional statute.
See Suber v. Lowes Home Ctrs., Inc., 609 F. App’x 615,
616 (11th Cir. 2015) (per curiam) (“Th[e] time limit for
filing a Rule 59(e) motion is a claims-processing rule,
not a jurisdictional rule, because it is not grounded in
a statutory requirement.” (internal quotation marks
omitted)); Blue v. Int’l Bhd. of Elec. Workers Local Un­
ion 159, 676 F.3d 579, 584 (7th Cir. 2012) (concluding
that Rule 59(e) is a “non-jurisdictional procedural rule[ ] ”
because it was “promulgated by the Supreme Court
under the Rules Enabling Act, 28 U.S.C. §§ 2071-2077,
and therefore ‘defies] not create or withdraw federal
7 The exceptions in Rule 9023 are found in (1) the rule itself,
which provides that, in contrast to Rule 59(e)’s 28-day time limit,
a Rule 9023 motion must be filed “no later than 14 days after
entry of judgment,” Fed. R. Bankr. P. 9023; and (2) Bankruptcy
Rule 3008, which concerns motions for “reconsideration of an or­
der allowing or disallowing a claim against the estate,” Fed. R.
Bankr. P. 3008. Neither exception is relevant to whether we may
analogize from case law regarding Civil Rule 59(e) to determine
if Rule 9023’s time limit is jurisdictional.

App. 20
jurisdiction’” (quoting Kontrick, 540 U.S. at 453));
Lizardo u. United States, 619 F.3d 273, 277 (3d Cir.
2010) (same); Nat’l Ecological Found, v. Alexander, 496
F.3d 466,475 (6th Cir. 2007) (same); First Ave. W. Bldg.,
LLC v. James (In re Onecast Media, Inc.), 439 F.3d 558,
562 (9th Cir. 2006) (concluding that “Rule 59 is . . . a
claim-processing rule”); cf. Wilburn u. Robinson, 480
F.3d 1140, 1146 n.ll (D.C. Cir. 2007) (rejecting dis­
sent’s argument that Rule 60(b) is jurisdictional be­
cause parallel Rule 59(e) is jurisdictional). 8

8 In Watson v. Ward, 404 F.3d 1230, 1231 (10th Cir. 2005),
this court granted a certificate of appealability on “[w]hether the
district court had jurisdiction to grant Respondent’s Rule 59 mo­
tion to alter or amend judgment,” which had been filed well after
what was then a 10-day time limit. We observed that “[w]ith ad­
mirable candor, Respondents concede that the district court
lacked jurisdiction.” Id. We then rejected an invitation to uphold
the district court’s ruling on the motion by treating it as if it was
entered pursuant to Rule 60(b). Id. at 1232. But we provided little
analysis of the jurisdictional issue, instead relying on (1) the ap­
pellees’ concession that the district court lacked jurisdiction over
an untimely Rule 59(e) motion, and (2) Brock v. Citizens Bank of
Clovis, 841 F.2d 344 (10th Cir. 1988), which predated Kontrick
and stated in summary fashion that a district court had “correctly
denied relief on jurisdictional grounds” when it denied a Rule
59(e) motion as untimely, id. at 347-48. See Watson, 404 F.3d at
1231. And although Watson post-dates Kontrick, which acknowl­
edged the distinction between jurisdictional and claim-processing
provisions, it did not discuss Kontrick. Further, two panels of this
court and one panel of the Tenth Circuit BAP have cited Watson
in noting we have not yet decided if Rule 59(e) is jurisdictional
or a claim-processing rule in light of Kontrick and its progeny.
See Martinez v. Carson, 697 F.3d 1252,1258 n.l (10th Cir. 2012);
Sky Harbor Air Serv., Inc. v. Reams, 491 F. App’x 875, 891 n.17
(10th Cir. 2012); Onyeabor v. Centennial Pointe Prop. Owners’
Assoc. (In re Onyeabor), BAP No. UT-14-047, 2015 WL 1726692,

App. 21

f

The reasoning of In re Dixon-Ross and our sister
circuits with respect to Civil Rule 59(e) persuades us
that Rule 9023 is a claim-processing rule, and a party
can waive or forfeit a timeliness objection to the bank­
ruptcy court’s consideration of a Rule 9023 motion
tiled more than 14 days after entry of judgment. In
this case, the Bank forfeited such an objection. But this
does not resolve the more difficult question: Whether
either an opposing party’s waiver or forfeiture of an
untimeliness argument in the bankruptcy court, or the
bankruptcy court’s denial of a Rule 9023 motion on the
merits, rather than for untimeliness, means the un­
timely Rule 9023 motion can, under Rule 8002(b)(1)(B),
toll the appeal period and hence render timely an
otherwise untimely notice of appeal. We now turn to
that question.
2. An untimely Rule 9023 motion does
not toll the appeal period
The parties cite no judicial decision resolving
whether an untimely Rule 9023 motion can, under
Rule 8002(b)(1)(B), toll the time period in which to file
a notice of appeal to the BAP or a district court, and we
have found none.9 We therefore must resort to analo­
gous tolling rules.
at *6 n.60 (B.A.P. 10th Cir. Apr. 15, 2015). None of those three
cases decided the issue either. We therefore decline to base our
analysis of Rule 9023 on Watson’s suggestion that a district court
lacks jurisdiction to grant an untimely Rule 59 motion.
9 Although In re Dixon-Ross held that a court has appellate
“jurisdiction to review a timely appealed order disposing of an

App. 22
a. Analogous tolling rules
Two procedural rules serve as proper analogues:
Federal Rules of Appellate Procedure 4(a)(4)(A) and
6(b)(2)(A)(i).
Rule 4(a)(4)(A) provides for tolling the jurisdic­
tional time limit for filing a notice of appeal from a dis­
trict court to a circuit court found in 28 U.S.C. § 2107:
“If a party files in the district court any of the following
motions under the Federal Rules of Civil Procedure—
and does so within the time allowed by those rules—
the time to file an appeal runs for all parties from the
entry of the order disposing of the last such remaining
motion.” Rule 59(e) motions are among the tolling
motions listed in Rule 4(a)(4)(A), see Fed. R. App. P.
4(a)(4)(A)(iv), and those “must be filed no later than 28
days after the entry of the judgment,” Fed. R. Civ. P.
59(e). As an Advisory Committee’s note states, Rule
8002 “is an adaptation of [Appellate] Rule 4(a),” and
Rule 8002(b) “is essentially the same as [Appellate]
Rule 4(a)(4).” Fed. R. Bankr. P. 8002 advisory commit­
tee’s note.
Similarly, Appellate Rule 6(b)(2)(A)(i) provides for
tolling the jurisdictional time limit to file a notice of
appeal to a circuit court from a decision by a BAP or a
district court exercising appellate jurisdiction in a

untimely motion for reconsideration,” 2016 WL 1056776, at *3 (in­
ternal quotation marks omitted), there is no indication that the
notice of appeal in that case was untimely and no mention of Rule
8002(b)(1)(B).

App. 23
bankruptcy case:10 “If a timely motion for rehearing
under Bankruptcy Rule 8022 is filed, the time to ap­
peal for all parties runs from the entry of the order
disposing of the motion.” Fed. R. App. R 6(b)(2)(A)(i).
Similar to time limits found in Civil Rule 59(e) and
Bankruptcy Rule 9023, Bankruptcy Rule 8022(a)(1)
has a time limit (14 days) for filing a motion for rehear­
ing before a BAP or district court sitting in its appel­
late capacity, and Rule 8022(a)(1) is a nonjurisdictional
claim-processing rule, see Tal v. Harth (In re Harth),
619 F. App’x 719, 721 (10th Cir. 2015) (recognizing
the BAP’s “authority to overlook the untimeliness of
a [Rule 8022] motion for rehearing on equitable
grounds”).11
b. Case law
Having established the relevant analogue rules,
we turn to case law interpreting them. We start with
Browder v. Director, Department of Corrections, where
the Supreme Court held that an untimely post-judgment
motion filed under either Civil Rule 52(b) or Rule 59
“could not toll the running of time to appeal under
Rule 4(a)” and therefore the circuit court “lacked
10 This time limit is jurisdictional. See Taumoepeau v. Mfrs.
& Traders Tr. Co. (In re Taumoepeau), 523 F.3d 1213, 1216 & n.l
(10th Cir. 2008) (jurisdictional timeliness requirement under
§ 2107 and Appellate Rule 4(a)(1) is applicable to bankruptcy
appeals to circuit courts by virtue of Appellate Rule 6(b)(1) and
Advisory Committee notes to Bankruptcy Rule 8001).
11 We cite unpublished decisions only for their persuasive
value consistent with 10th Cir. R. 32.1(A).

App. 24
jurisdiction to review the [underlying order granting
habeas relief].” 434 U.S. 257, 265 (1978). Before the
district court, the opposing party had objected on time­
liness grounds to the court’s consideration of the mo­
tion, but that fact appears to have played no role in the
Supreme Court’s decision. Instead, the Court relied on
what Bowles later confirmed—that § 2107(a)’s 30-day
time limit for filing a notice of appeal in a civil case is
“jurisdictional,” id. at 264 (internal quotation marks
omitted)—and on Rule 4(a)(4)(A)’s purpose, which is
“to set a definite point of time when litigation shall be
at an end, unless within that time the prescribed ap­
plication has been made; and if it has not, to advise
prospective appellees that they are freed of the appel­
lant’s demands,” id. (internal quotation marks omit­
ted).
We next consider Chief Judge Sentelle’s dissenting
opinion in Obaydullah v. Obama, 688 F.3d 784 (D.C.
Cir. 2012) (per curiam), and opinions from the First,
Third, Fourth, Fifth, Seventh, and Eleventh Circuits,
almost all of which post-date Bowles and follow
Browder. These decisions further develop the rationale
for the rule that untimely post-judgment motions can­
not toll the period in which to file a notice of appeal
even where an opposing party does not object on time­
liness grounds or the district court disposes of the
motion on the merits.
In Obaydullah, the government did not oppose the
district court’s consideration of an untimely Rule 59(e)
motion, which the court granted. Were it not for the
tolling effect of that motion, Obaydullah’s notice of

li

App. 25
appeal would have been untimely to appeal the under­
lying judgment. In determining that the untimely mo­
tion tolled the appeal period, the. majority relied on
circuit precedent to conclude that Rule 4(a)(4)(A)’s
tolling provision for Rule 59(e) motions is a claim­
processing rule, id. at 789, and therefore “the . . .
waiver of any timeliness objection” to an untimely Rule
59(e) motion permits a court to consider an appeal
from the underlying judgment, id. at 79i. But in what
we consider a persuasive dissent, Chief Judge Sentelle
argued that “Bowles and Browder . .. should govern
[the] case,”id. at 800, pointing out that Bowles (1) “clar­
ified that Browder ... is good law,” (2) “cited Browder’s
treatment of time limits with approval,” and (3) “ex­
plained that [the Court’s] recent negative treatment
of Robinson1121 and other cases, such as Browder, that
relied on Robinson for the proposition that the time
limit set for a notice of appeal is jurisdictional, was
‘dicta,’ ” id. at 799 (quoting Bowles, 551 U.S. at 210 n.2).
Judge Sentelle also likened allowing an untimely (and
unobjected-to) Rule 59(e) motion to toll a jurisdictional
appeal period to the “unique circumstances” doctrine
the Supreme Court jettisoned in Bowles. See id. at 800
(internal quotation marks omitted).
We also find the Third Circuit’s decision in Lizardo
v. United States, 619 F.3d 273 (3d Cir. 2010), persuasive
and instructive. In Lizardo, the government failed to
object to a Rule 59(e) motion as untimely, and the dis­
trict court denied it. The Third Circuit held that
12 United States v. Robinson, 361 U.S. 220 (1960).

App. 26
because Rule 59(e) is a claim-processing rule, the gov­
ernment had forfeited any timeliness objection it could
have made in the district court, but it did not forfeit its
objection for purposes of Rule 4(a)(4)(A). Relying pri­
marily on Browder, the court held that “[a]n untimely
Rule 59(e) motion does not toll the time for filing an
appeal under Rule 4(a)(4)(A). This is true even if the
party opposing the motion did not object to the mo­
tion’s untimeliness and the district court considered
the motion on the merits.” Id. at 278. The court rea­
soned that “Rule 4’s main purpose is ‘to set a definite
point of time when litigation shall be at an end,’ ” id. at
279 (quoting Browder, 434 U.S. at 264), and “[h]olding
that an untimely Rule 59(e) motion is timely for pur­
poses of Rule 4(a)(4)(A) by virtue of the opposing
party’s failure to object to that-untimeliness in the dis­
trict court would accomplish the opposite result,” id. at
280.
In reaching the conclusion that untimely post­
judgment motions cannot toll the period for filing a
notice of appeal, the Fifth and Seventh Circuits have
followed, inter alia, Browder and Lizardo. See Overstreet v. Joint Facilities Mgmt., L.L.C. (In re Crescent
Res., L.L.C.), 496 F. App’x 421, 424 (5th Cir. 2012) (per
curiam) (holding that an untimely Rule 59(e) motion
“will not toll the notice of appeal period, even if the dis­
trict court addressed the late-filed motion on the mer­
its”); Blue v. Infl Bhd. of Elec. Workers Local Union
159, 676 F.3d 579, 582-85 (7th Cir. 2012) (concluding
that, where opposing party had not objected to an im­
permissible extension of the deadline to file a post-trial

App. 27
motion, the district court had jurisdiction to hear those
motions but they “did not toll the time [appellant]
had to file its Notice of Appeal”). And in decisions pre­
dating Lizardo, the First and Fourth Circuits have
followed Browder. See Garcia-Velazquez v. Frito Lay
Snacks Caribbean, 358 F.3d 6,8-11 (1st Cir. 2004) (con­
cluding that under Browder, an untimely Rule 59(e)
motion did not toll the appeal period even though the
district court had denied it on the merits); Panhorst v.
United States, 241 F.3d 367, 369-70 (4th Cir. 2001) (re­
lying on Browder to hold that “[a]n untimely Rule 59(e)
motion does not defer the time for filing an appeal,
which continues to run from the entry of the initial
judgment order,” where district court had granted mo­
tion to consider untimely Rule 59(e) motion then de­
nied that motion). In another pre-Lizardo case, the
Eleventh Circuit also reached the same conclusion, al­
beit without reliance on Browder. See Green v. Drug
Enf’t Admin., 606 F.3d 1296, 1302 (11th Cir. 2010)
(holding that “Appellate Rule 4(a)(4)(A) requires [post­
judgment] motions be timely to toll the period for filing
a notice of appeal,” and explaining that “[a]lthough
Kontrick and Eberhart suggest that a district court has
jurisdiction to hear an out-of-time Rule 59(e) motion if
the non-moving party does not object promptly enough
(and thus forfeits his ability to object to timeliness
later), neither case would turn an untimely Rule 59(e)
motion into a timely one” (footnote omitted)).
Finally, we have applied Browder in a bankruptcy
case with a procedural posture analogous to this case.
In In re Harth, we concluded that an untimely motion

App. 28

\

for rehearing by the BAP filed under Bankruptcy Rule
8022, which the BAP denied on the merits after noting
its untimeliness, did not toll the time limit to appeal to
this court under Appellate Rule 6(b)(2)(A)(i). In sup­
port, we relied on Browder, explaining that although
the BAP had “authority to overlook the untimeliness of
a motion for rehearing on equitable grounds, that is a
separate matter from whether the BAP affects our ap­
pellate jurisdiction by denying the untimely motion on
the merits.” 619 F. App’x at 721 (emphasis added). We
said that whether the appellant was “entitled to tolling
of the appeal period is itself a jurisdictional issue,” and
under Bowles, “courts have no authority to create eq­
uitable exceptions to jurisdictional requirements.” Id.
(brackets and internal quotation marks omitted). “We
therefore agree [d] with those circuits holding that a
lower court’s discretionary election to deny an un­
timely post-judgment motion on the merits (an equita­
ble action without jurisdictional import in that court)
does not re-invest that motion with a tolling effect
for purposes of appellate jurisdiction.” Id. We consider
In re Harth’s application of Browder in the bankruptcy
context to be persuasive.
The Second, Sixth, Ninth, and D.C. Circuits have
concluded that an untimely post-judgment motion can
toll the appeal period under Appellate Rule 4(a)(4)(A).
See Demaree u. Pederson, 887 F.3d 870, 876 (9th Cir.
2018) (per curiam); Weitzner v. Cynosure, Inc., 802 F.3d
307, 312 (2d Cir. 2015); Obaydullah, 688 F.3d at 789;
Nat’l Ecological Found., 496 F.3d at 476. The Eighth
Circuit has implied as much. See Dill u. Gen. Am. Life

App. 29
Ins. Co., 525 F.3d 612,619 (8th Cir. 2008). However, we
are more persuaded by the contrary view expressed in
Browder, Chief Judge Sentelle’s dissent in Obaydullah,
and the other circuit decisions cited above.
Accordingly, we hold that an untimely Rule 9023
motion is ineffective to toll the time to file a notice of
appeal under 28 U.S.C. § 158(c)(2) and Bankruptcy
Rule 8002(a) regardless of whether the bankruptcy
court disposes of the motion on the merits or whether
an opposing party raises in the bankruptcy court a
timeliness objection to that court’s consideration of
the motion. In the latter situation, holding otherwise
would allow an opposing party’s failure to raise a time­
liness objection to expand the jurisdictional appeal pe­
riod, and that would violate the tenet that “a court’s
subject-matter jurisdiction cannot be expanded to ac­
count for the parties’ litigation conduct.” Kontrick, 540
U.S. at 456; see Bowles, 551 U.S. at 213 (explaining that
where an "error is one of jurisdictional magnitude, [a
litigant] cannot rely on forfeiture or waiver to excuse
his lack of compliance with [a] statute’s time limita­
tions [for filing a notice of appeal]”).
3. BAP had authority to consider, sua
sponte, Rule 9023 motion’s timeliness
Mr. Robertson complains that the BAP should not
have considered the timeliness of his Rule 9023 motion
sua sponte. But given our reaffirmance that Rule
8002(a)(l)’s time limit is jurisdictional, we conclude
that the BAP had authority to consider sua sponte

App. 30
whether Mr. Robertson’s Rule 9023 motion was timely
filed for purposes of determining whether the BAP had
jurisdiction over his appeal. See Henderson, 562 U.S. at
434 (“[F]ederal courts have an independent obligation
to ensure that they do not exceed the scope of their ju­
risdiction, and therefore they must raise and decide ju­
risdictional questions that the parties either overlook
or elect not to press.”)
IV. Attorney fees
Included with its appellate brief, the Bank sum­
marily requests “attorneys’ fees on appeal pursuant to
the final orders and judgments made by the Bank­
ruptcy Court, the Utah State District Court and the
Utah Court of Appeals based upon the loan documents
entered into between the Bank and [Mr.] Robertson.”
Aplee. Resp. Br. at 53-54. The statute the Bank cites in
support of its request authorizes a court to award at­
torney fees to the prevailing party “in a civil action
based upon any promissory note, written contract, or
other writing executed after April 28, 1986, when the
provisions of the promissory note, written contract, or
other writing allow at least one party to recover attor­
ney fees.” Utah Code Ann. § 78B-5-826.
We deny the request without prejudice to the Bank
filing a proper motion that complies with applicable
procedural rules, including 10th Cir. R. 27 and 39.2,
and that sets out more fully the legal basis for an
award for attorney fees. At a minimum, any such mo­
tion should (1) identify the “promissory note[s], written

App. 31
contracts], or other writing[s] allow[ing] at least one
party to recover attorney fees,” Utah Code Ann.
§ 78B-5-826; (2) discuss whether an appeal from a BAP
decision regarding an adversary proceeding is “a civil
action” within the meaning of § 78B-5-826 and, if so,
whether excepting from discharge a deficiency judg­
ment in an adversary proceeding means that the ad­
versary proceeding is “based upon” the relevant
“promissory note, written contract, or other writing,”
id.; and (3) identify any other Utah statutory or case
law bearing on the Bank’s entitlement to attorney fees
in this appeal, see, e.g., Mgmt. Servs. Corp.' v. Dev. Assocs., 617 P.2d 406, 409 (Utah 1980) (holding “that a
provision for payment of attorney’s fees in a contract
includes attorney’s fees incurred by the prevailing
party on appeal as well as at trial, if the action is
brought to enforce the contract” (emphasis added)).
V.

Conclusion

We affirm the BAP’s judgment dismissing Mr.
Robertson’s appeal for lack ofjurisdiction. We deny the
Bank’s request for attorney fees on appeal without
prejudice to the Bank filing a proper motion for attor­
ney fees.
Entered for the Court
Jerome A. Holmes
Circuit Judge

App. 32
UNITED STATES
BANKRUPTCY APPELLATE PANEL
OF THE TENTH CIRCUIT

IN RE
MICHAEL LYNN ROBERTSON,
Debtor.

BANNER BANK, formerly
doing business in Utah
as AmericanWest Bank
or Far West Bank,

BAP No. UT-17-034
Bankr. No. 14-20984
Adv. No. 14-2189
Chapter 7
ORDER DISMISSING
APPEAL FOR LACK
OF JURISDICTION
(Filed Mar. 29, 2018)

Plaintiff - Appellee,
v.
MICHAEL LYNN ROBERTSON,
Defendant - Appellant.

Before CORNISH, JACOBVITZ, and HALL, Bank­
ruptcy Judges.
Appellant filed a Notice ofAppeal on July 14,20171
appealing the Order and Judgment Granting Plain­
tiff’s Motion for Summary Judgment and Excepting Debt,
from Discharge Pursuant to 11 U.S.C. § 523(a)(2)(B)
and Denying Defendant’s Motion for Summary Judgment
1 BAP ECF No. 1.

App. 33
(the “Order”).2"The Court issued the Order to Show
Cause Why Appeal Should Not Dismissed as Untimely
on March 8, 2018, requiring Appellant Michael Lynn
Robertson to provide a memorandum of law explaining
why the appeal is not untimely.3 All parties have re­
sponded to the Court’s show cause order.
The bankruptcy court entered the Order on March
30, 2017. The bankruptcy court docket indicates re­
ceipt of the Motion to Reconsider, Alter, or Amend the
Judgment pursuant to Rule 9023 on April 14,2017 (the
“Motion to Reconsider”)—fifteen days after entry of the
Order.4 The Court issued the show cause order because
although Appellant filed a notice of appeal within fourteen-days of the entry of an order denying the Motion
to Reconsider, Appellant did not timely file the under­
lying Motion to Reconsider to effectively preserve the
time to file the notice of appeal.
In his Memorandum of Law as to Jurisdiction,5
Appellant identifies the fourteen-day requirement to
file a notice of appeal provided by Federal Rule of
Bankruptcy Procedure 8002(a)(1)6 and the effect of
filing a post judgment motion on the time to appeal.
Specifically, Rule 8002(b)(1)(B) provides that upon the
filing of a timely motion pursuant to Rule 9023, the
time to file an appeal runs from the entry of the order
2
3
4
5
6

Bankr. ECF No. 115.
BAP ECF No. 36.
Bankr. ECF No. 118.
BAP ECF No. 37.
Hereinafter referenced as “Rule” or “Rules.”

App. 34
disposing of such a motion. Rule 9023 provides a timely
motion to alter or amend a judgment must be filed
within fourteen days of entry of the judgment.
Appellant argues he timely filed the Motion to
Reconsider because he deposited it in the United
States mail, postage pre-paid on April 13, 2017—within
fourteen-days of entry of the Order. Appellant equates
“delivering custody of the document and depositing it
in the United States post office” with filing the Motion
to Reconsider.7 Therefore, Appellant argues he filed the
Motion to Reconsider within fourteen days of entry of
the Order to preserve the time to appeal pursuant to
Rule 8002(b).
A document to be filed under the Rules “shall be
filed with the clerk in the district where the case under
the Code is pending.”8 The general rule is that to be
filed a document must be received by the clerk. The
Rules provide limited exceptions to the general rule.
For instance, Rule 5005(c) indicates where a document
is erroneously delivered to various government enti­
ties affiliated with the bankruptcy court, the court may
order that the document be deemed filed with the
clerk. However, under Rule 5005(c)’s exception the doc­
ument is deemed filed with the clerk as of the date
it was received by the affiliated entity—not the date of

7 Memorandum of Law as to Jurisdiction at 6.
8 Fed. R. Bankr. P. 5005(a)(1).

I

App. 35
mailing.9 A second exception found in Rule 8002(c)(1)
provides an inmate confined to an institution timely
files a notice of appeal “if it is deposited in the institu­
tion’s internal mail system on or before the last day for
filing.”
Rule 9006(e) provides service of any paper is com­
plete upon mailing. However, service of a paper “cannot
be equated with ‘filing’ a document” as the Rules “use
the word ‘file’ to denote turning a document over to the
court, while ‘serving’ a document relates to the act of
providing that document to a party involved in the ac­
tion.”10
There is no exception to the general rule described
above that applies to Appellant’s filing the Motion to
9 In re Wheatfield Bus. Park, LLC, 308 B.R. 463, 469 (9th Cir.
BAP 2004) (holding document timely filed under Rule 5005(c)
when received by United States Trustee).
10 In re Wallace, 277 B.R. 351, 352 (Bankr. N.D. Ohio 2001)
(citing Chrysler Motors Corp. u. Schneiderman, 940 F.2d 911, 914
(3d Cir. 1991)); Houston u. Lack, 487 U.S. 266, 274 (1988) (citing
body of cases rejecting “the general argument that a notice of ap­
peal is ‘filed’ at the moment it is placed in the mail ... on the
ground that receipt by the district court is required); Snyder v.
Snyder, No. 97-1081, 1998 WL 58175, at *3 (10th Cir. Feb. 11,
1998) (“Mailing, however, does not constitute ‘filing’ under the
Federal Rules of Civil Procedure.”); Dumitrascu v. Dumitrascu,
No. 15-CV-561, 2017 WL 5241234, (N.D. Okla. Jan. 13,2017) (“de­
positing a paper in the mail does not constitute filing under the
Federal Rules of Civil Procedure.”); In re Nimz Transp., Inc., 505
F.2d 177, 179 (7th Cir. 1974) (“mailing alone does not constitute
filing, . . . filing requires delivery and receipt by the property
party.”); Kahler-Ellis Co. v. Ohio Turnpike Comm., 225 F.2d 922
(6th Cir. 1955) (depositing notice in the mail “is not a filing; only
when the clerk acquires custody has [a document] been filed.”).

App. 36
Reconsider. Appellant’s act of placing his Motion to Re­
consider in the mail does not constitute timely filing
the motion. Accordingly, Appellant did not preserve the
time to file a notice of appeal of the Order pursuant to
Rule 9023 and this appeal is untimely. This Court
treats “the timely filing of a notice of appeal pursuant
to [11 U.S.C.] § 158(c)(2) and Rule 8002 [as] a jurisdic­
tional requirement that cannot be waived.”11 There­
fore, the Court lacks jurisdiction to consider this
appeal.
Accordingly, it is HEREBY ORDERED that:
1. This appeal is DISMISSED for lack of appel­
late jurisdiction; and
2. All deadlines pending in this appeal are termi­
nated.
For the Panel
/s/ Blaine F. Bates
Blaine F. Bates
Clerk of Court

11 Kingsley Capital, Inc. v. Jones (In re Kingsley Capital,
Inc.), 423 B.R. 344, 350 (10th Cir. BAP 2010); In re Latture, 605
F.3d 830, 836-37 (10th Cir. 2010) (adopting the BAP’s holding the
time restrictions for filing an appeal are jurisdictional).

App. 37
UNITED STATES
BANKRUPTCY APPELLATE PANEL
OF THE TENTH CIRCUIT

IN RE
MICHAEL LYNN ROBERTSON,
Debtor.
BANNER BANK, formerly
doing business in Utah
as AmericanWest Bank
or Far West Bank,

BAP No. UT-17-034
Bankr. No. 14-20984
Adv. No. 14-2189
Chapter 7
ORDER DENYING
MOTION FOR
REHEARING
(Filed Apr. 17, 2018)

Plaintiff - Appellee,
v.
MICHAEL LYNN ROBERTSON,
Defendant - Appellant.

Before CORNISH, JACOBVITZ, and HALL, Bank­
ruptcy Judges.

Appellant filed a Notice ofAppeal on July 14,20171
appealing the Order and Judgment Granting Plain­
tiff’s Motion for Summary Judgment and Excepting Debt
from Discharge Pursuant to 11 U.S.C. § 523(a)(2)(B)
and Denying Defendant’s Motion for Summary Judgment
BAP ECF No. 1.

App. 38
(the “Order”)-2 The bankruptcy court entered the Order
on March 30, 2017. The bankruptcy court docket in­
dicates receipt of the Motion to Reconsider, Alter, or
Amend the Judgment pursuant to Rule 9023 on April
14, 2017 (the “Motion to Reconsider”)—fifteen days af­
ter entry of the Order.3 Accordingly, the Court issued
an Order to Show Cause Why Appeal Should Not Dis­
missed as Untimely (the “Order to Show Cause)4 be­
cause, although Appellant filed a notice of appeal
within fourteen-days of the entry of an order denying
the Motion to Reconsider, Appellant did not timely file
the underlying Motion to Reconsider to effectively pre­
serve the time to file the notice of appeal.5
Appellant filed a response to the Order to Show
Cause, arguing that he timely filed the Motion to Re­
consider because he deposited it in the United States
mail, postage pre-paid on April 13, 2017—within four­
teen-days of entry of the Order. Because mailing did
not constitute timely filing in this instance and Appel­
lant did not preserve the time to file a notice of appeal
of the Order pursuant to Rule 9023, this Court dis­
missed the appeal as untimely on March 29, 2019.6
On April 11,2018, Appellant filed a Motion for Re­
hearing or to Alter and Amend the Judgment (the “Mo­
tion for Rehearing”). Appellant argues that only time
2
3
4
5
6

Bankr. ECF No. 115.
Bankr. ECF No. 118.
BAP ECF No. 36.
Fed. R. Bankr. P. 8002(b).
BAP ECF No. 41.

App. 39
limitations set forth in statutes, as opposed to rules,
are jurisdictional, relying on Hamer v. Neighborhood
Housing Services of Chicago.1 He acknowledges that 28
U.S.C. § 158 refers to the rule that contains the time
limit but contends that because the time limit is not
explicitly specified in the statute itself, the rule setting
forth the time limit is not jurisdictional.
We disagree. We have previously held that, al­
though 28 U.S.C. § 158(c)(2) does not specify the num­
ber of days set forth in Rule 8002 for filing a notice of
appeal, the timely filing of a notice of appeal in a bank­
ruptcy case is nonetheless a jurisdictional requirement
as § 158(c)(2) prescribes the filing deadline by adopting
the time limits of Rule 8002.8 Appellant fails to provide
authority in support of his position that § 158(c)(2)
must specifically state the time limit set forth in a Rule
it adopts in order to effect a jurisdictional requirement.
Hamer does not alter the rule that the timely filing of
a notice of appeal pursuant to § 158(c)(2) and Rule
8002 is a jurisdictional requirement that cannot be ig­
nored.9
7 138 S. Ct. 13 (2017) (“An appeal filing deadline prescribed
by statute will be regarded as jurisdictional, so that late filing of
the appeal notice necessitates dismissal of the appeal, but a time
limit prescribed only in a court-made rule is not jurisdictional; it
is, instead, a mandatory claim-processing rule subject to forfei- ,
ture if not properly raised by the appellee.”).
8 Kingsley Capital, Inc. v. Jones (In re Kingsley Capital, Inc.),
423 B.R. 344, 350 (10th Cir. BAP 2010).
9 Appellant also argues that an exception should exist for pro
se parties and that Thompson v. INS, 375 U.S. 384, (1964) pro­
vides for an exception to excuse an untimely filing of a notice of

(

*

App. 40
Federal Rule of Bankruptcy Procedure 8022 and
Tenth Circuit BAP Local Rule 8022-1 govern the pro­
cedures applicable to motions for rehearing. Tenth Cir­
cuit BAP Local Rule 8022-1(a) provides that: “A motion
for rehearing should not be filed routinely. Rehearing
will be granted only if a significant issue has been over­
looked or misconstrued by this Court.” Pursuant to
Federal Rule of Bankruptcy Procedure 8022, a motion
for rehearing must state with particularity each point
of law or fact that the moving party believes the Court
has overlooked or misapprehended and must argue in
support of the motion. The Court has reviewed the Mo­
tion for Rehearing. Appellant has not shown that the
Court has overlooked or misapprehended any point of
law or fact.
For the reasons stated above, it is HEREBY OR­
DERED that the Motion for Rehearing is DENIED.
For the Panel
/s/ Blaine F. Bates
Blaine F. Bates
Clerk of Court

appeal in unique circumstances. No such exception exists for pro
se parties and the Supreme Court no longer recognizes the unique
circumstance exception. See Bowles v. Russell, 551 U.S. 205 (2007)
(holding that the unique circumstances exception to excuse an un­
timely filing of a notice of appeal is no longer recognized and over­
ruling Thompson v. INS, 375 U.S. 384 (1964)).

App. 41
This order is SIGNED.
Dated:
/s/ R. Kimball Mosier
[SEAL]
June 29, 2017
R. KIMBAL MOSIER
U.S. Bankruptcy Judge
IN THE UNITED STATES BANKRUPTCY COURT
FOR THE DISTRICT OF UTAH
In re:
MICHAEL LYNN ROBERTSON,

Bankruptcy. No.
14-20984
Chapter 7

Debtor.
BANNER BANK, formerly
doing business in Utah
as AmericanWest Bank
or Far West Bank,
Plaintiff,

Hon.
R. Kimball Mosier
Adversary Proceeding
No. 14-2189

v.
MICHAEL LYNN ROBERTSON,
Defendant.

ORDER DENYING DEFENDANT’S
MOTION TO RECONSIDER, ALTER,
OR AMEND THE JUDGMENT
(Entered On Docket: 06/30/2017)
(Filed Jul. 2, 2017)
On March 30, 2017, the Court entered an Order
and Judgment which, among other things, denied

<

App. 42
Defendant Michael Robertson’s motion for summary
judgment and granted Plaintiff Banner Bank’s motion
for summary judgment. The Defendant subsequently
filed a motion pursuant to Fed. R. Bankr. P. 9023 and
Fed. R. Civ. P. 59(e) requesting that the Court recon­
sider, alter, or amend the portion of its Order and Judg­
ment that granted the Plaintiff’s motion for summary
judgment.
The Court conducted a hearing on the Defendant’s
motion on June 20, 2017. The Defendant appeared pro
se, and Steven W. Call and Elaine Monson appeared
on behalf of the Plaintiff. After considering the Defend­
ant’s motion, the Plaintiff’s memorandum in opposi­
tion, the Defendant’s reply memorandum, and the
parties’ arguments at the hearing, the Court hereby
ORDERS:
1. The Defendant’s Motion to Reconsider, Alter,
or Amend the Judgment is DENIED.
END OF DOCUMENT
________oooOooo________
(Designation Of Parties To Receive Notice Omitted)
(Certificate Of Notice Omitted)
(CM/ECF Notice Of Electronic Filing Omitted)

App. 43
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
In re:
MICHAEL LYNN ROBERTSON,
Debtor.
BANNER BANK, formerly
doing business in Utah
as AmericanWest Bank
or Far West Bank,

No. 18-4060

Plaintiff - Appellee,
v.
MICHAEL LYNN ROBERTSON,
Defendant - Appellant.

ORDER
(Filed JuL 26, 2019)
Before HOLMES, BACHARACH, and PHILLIPS,
Circuit Judges.
Appellant’s petition for rehearing is denied.
The petition for rehearing en banc was transmit­
ted to all of the judges of the court who are in regular

App. 44
active service. As no member of the panel and no judge
in regular active service on the court requested that
the court be polled, that petition is also denied.
Entered for the Court
/s/ Elisabeth A. Shumaker
ELISABETH A. SHUMAKER,
Clerk

